<html>
<title> - H.R. 4496, THE VOCATIONAL AND TECHNICAL EDUCATION FOR THE FUTURE ACT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 H.R. 4496, THE VOCATIONAL AND TECHNICAL EDUCATION FOR THE FUTURE ACT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             June 15, 2004

                               __________

                           Serial No. 108-62

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
94-193                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Susan A. Davis, California
James C. Greenwood, Pennsylvania     Danny K. Davis, Illinois
Fred Upton, Michigan                 Ed Case, Hawaii
Vernon J. Ehlers, Michigan           Raul M. Grijalva, Arizona
Jim DeMint, South Carolina           Ron Kind, Wisconsin
Judy Biggert, Illinois               Dennis J. Kucinich, Ohio
Todd Russell Platts, Pennsylvania    Chris Van Hollen, Maryland
Ric Keller, Florida                  Denise L. Majette, Georgia
Joe Wilson, South Carolina           George Miller, California, ex 
Marilyn N. Musgrave, Colorado            officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 15, 2004....................................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     1
        Prepared statement of....................................     3
    Woolsey, Hon. Lynn, Ranking Member, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     4

Statement of Witnesses:
    Lufkin, Mimi, Executive Director, National Alliance for 
      Partnerships in Equity, Cochranville, Pennsylvania.........    20
        Prepared statement of....................................    22
    Oliver, Katharine, Assistant State Superintendent, Career, 
      Technology and Adult Learning, Maryland State Department of 
      Education, Baltimore, Maryland.............................    12
        Prepared statement of....................................    15
    Sommers, Dr. Robert D., CEO, Butler Technology and Career 
      Development Schools, Fairfield Township, Ohio..............     6
        Prepared statement of....................................     9
    White, Robin, Senior Program and Policy Director, Academy for 
      Educational Development, National Institute for Work and 
      Learning, Washington, DC...................................    26
        Prepared statement of....................................    28

Additional materials supplied:
    Mississippi Band of Choctaw Indians, Statement submitted for 
      the Record.................................................    46
    United Tribes Technical College, Statement submitted for the 
      Record.....................................................    41

 
  H.R. 4496, THE VOCATIONAL AND TECHNICAL EDUCATION FOR THE FUTURE ACT

                              ----------                              


                         Tuesday, June 15, 2004

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2175, Rayburn House Office Building, Hon. Michael N. 
Castle [Chairman of the Subcommittee] presiding.
    Present: Representatives Castle, Biggert, Woolsey, Davis, 
and Van Hollen.
    Ex officio present: Representative Boehner.
    Staff present: Kevin Frank, Professional Staff Member; 
Alexa Marrero, Press Secretary; Whitney Rhoades, Professional 
Staff Member; Deborah L. Samantar, Committee Clerk/Intern 
Coordinator; and Lynda Theil, Minority Legislative Associate, 
Education.
    Chairman Castle. A quorum being present, the Subcommittee 
on Education Reform of the Committee on Education and the 
Workforce will come to order.
    We are meeting today to hear testimony on H.R. 4496, the 
Vocational and Technical Education for the Future Act, and the 
Committee will recall, only statements are limited to the 
Chairman and the rights and minority member of the Subcommittee 
who is on her way here right now.
    Therefore, if other members have statements, they may be 
included in the hearing record. With that, I ask you now to 
consent that the hearing record remain open fourteen days to 
allow member statements and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    Without objection, so ordered.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Good afternoon to everybody here. Thank you for joining us 
today to hear testimony on H.R. 4496, the Vocational and 
Technical Education for the Future Act, which I introduced 2 
weeks ago. This is our third hearing on the vocational and 
technical education, and first on this bill to re-authorize the 
Carl D. Perkins Vocational and Technical Education Act.
    We look forward today to getting feedback from the 
education and Perkins community on the major provisions in the 
legislation.
    The Perkins Act aims to prepare youth and adults for the 
future by building their academic and technical skills in 
preparation for post-secondary education and/or employment.
    The bill we are examining today enhances Perkins by 
ensuring both secondary and post-secondary students receiving 
assistance through the program are acquiring rigorous academic 
and technical skills, and will have the opportunity to 
transition into further education and/or successful employment.
    H.R. 4496 strengthens accountability by requiring that 
locals establish adjusted levels of performance to complement 
the state-adjusted levels of performance already in current 
law.
    The state agency will evaluate annually whether the local 
recipient is making substantial progress in achieving the local 
adjusted levels of performance. Our goal is not to penalize 
those local areas facing difficulty in achieving high-quality 
outcome for their students, but to create a structure that 
includes technical assistance, opportunities for program 
improvement, and sanctions only as a last resort.
    H.R. 4496 also folds a separate tech prep program 
activities and funding into the larger state grant. Under the 
bill, states will be expected to spend the same amount of money 
on tech prep activities as they did under the former stand-
alone program. Through this re-authorization, we want to ensure 
that all state programs incorporate important lessons learned 
from the former separate grant program, and strengthen the ties 
between secondary and post-secondary education. Consortia that 
would receive funding under the state grant for tech prep 
activities must be effective programs that ensure that transfer 
of credits from secondary to post-secondary education, and 
provide non-duplicative academic and vocational and technical 
education.
    The bill also requires states to establish model sequences 
of courses to emphasize further student academic and vocational 
and technical achievement. Sequences of courses will 
incorporate a non-duplicative progression of both secondary and 
post-secondary elements, which would include both academic and 
vocational and technical content.
    Local recipients at both the secondary and post-secondary 
level would adopt at least one model sequence of courses as 
developed by the state. I believe this also will help drive 
program improvements by ensuring that states clarify the 
progression of academic and vocational and technical courses 
needed for the post-secondary education and training or 
employment of a student's choice.
    As a result of the changes in the bill, I believe that H.R. 
4496 would help states, community colleges, and other post-
secondary education institutions and local educational agencies 
better utilize funds for vocational and technical education 
programs, increase accountability, emphasize student 
achievement, and strengthen opportunities for coordination.
    We welcome the testimony of our witnesses as we seek to 
ensure that the re-authorization of the Perkins Act achieves 
those goals.
    Our panel today represents state and local educators and a 
researcher, who will share with us their experiences at 
operating and evaluating vocational and technical education 
programs. And we do thank you for joining us today, and we do 
appreciate hearing their insights.
    In just a moment, we will begin with the introductions, but 
first I will yield to the ranking member, Ms. Woolsey, for any 
statements she may wish to make.
    [The prepared statement of Chairman Castle follows:]

  Statement of the Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Good afternoon. Thank you for joining us today to hear testimony on 
H.R. 4496, the Vocational and Technical Education for the Future Act, 
which I introduced two weeks ago. This is our third hearing on 
vocational and technical education and first on this bill to 
reauthorize the Carl. D. Perkins Vocational and Technical Education 
Act. We look forward today to getting feedback from the education and 
Perkins community on the major provisions in the legislation.
    The Perkins Act aims to prepare youth and adults for the future by 
building their academic and technical skills in preparation for 
postsecondary education and/or employment. The bill we are examining 
today enhances Perkins by ensuring both secondary and postsecondary 
students receiving assistance through the program are acquiring 
rigorous academic and technical skills and will have the opportunity to 
transition into further education and/or successful employment.
    H.R. 4496 strengthens accountability by requiring that locals 
establish adjusted levels of performance, to complement the state 
adjusted levels of performance already in current law. The state agency 
will evaluate annually whether the local recipient is making 
substantial progress in achieving the local adjusted levels of 
performance. Our goal is not to penalize those local areas facing 
difficulty in achieving high quality outcomes for their students, but 
to create a structure that includes technical assistance, opportunities 
for program improvement, and sanctions only as a last resort.
    H.R. 4496 also folds the separate Tech-Prep program activities and 
funding into the larger state grant. Under the bill, states still will 
be expected to spend the same amount of money on tech-prep activities 
as they did under the former stand-alone program. Through this 
reauthorization, we want to ensure that all state programs incorporate 
important lessons learned from the former separate grant program and 
strengthen the ties between secondary and postsecondary education. 
Consortia that would receive funding under the state grant for tech-
prep activities must be effective programs that ensure the transfer of 
credits from secondary to postsecondary education and provide non-
duplicative, academic and vocational and technical education.
    The bill also requires states to establish model sequences of 
courses to emphasize further student academic and vocational and 
technical achievement. Sequences of courses will incorporate a non-
duplicative progression of both secondary and postsecondary elements, 
which would include both academic and vocational and technical content. 
Local recipients at both the secondary and postsecondary level would 
adopt at least one model sequence of courses as developed by the state. 
I believe this also will help drive program improvements by ensuring 
that states clarify the progression of academic and vocational and 
technical courses needed for the postsecondary education and training 
or employment of a student's choice.
    As a result of the changes in the bill, I believe that H.R. 4496 
would help states, community colleges and other postsecondary education 
institutions, and local educational agencies better utilize funds for 
vocational and technical education programs, increase accountability, 
emphasize student achievement, and strengthen opportunities for 
coordination.
    We welcome the testimony of our witnesses as we seek to ensure that 
the reauthorization of the Perkins Act achieves these goals. Our panel 
today represents state and local educators and a researcher who will 
share with us their experiences in operating and evaluating vocational 
and technical education programs. We thank you for joining us today and 
appreciate your insights.
    I will now yield to Congresswoman Woolsey for any opening statement 
she may have.
                                 ______
                                 

STATEMENT OF HON. LYNN WOOLSEY, RANKING MEMBER, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Ms. Woolsey. Thank you, Mr. Chairman. I apologize for being 
late. I appreciate that we are having this hearing, but I wish 
we had had a little more time to review the bill before it was 
introduced. I do believe, though, that we have heard from your 
staff and from you that there is still time to make some 
changes in it, and that, from the testimony we hear today, we 
may craft an even better bill.
    Chairman Castle. Yes. Sorry.
    [Laughter.]
    Ms. Woolsey. Thank you.
    Chairman Castle. That was my cue.
    Ms. Woolsey. That was your cue. I am particularly pleased 
to have Mimi Lufkin as one of our witnesses. Mimi has been 
working tirelessly for years on one of the issues that is most 
important to me as we re-authorize the Perkins Act, and that's 
the Access for Special Populations Vocational and Technical 
Training, particularly for women in non-traditional careers. 
Mimi is the national leader on these issues and, not 
coincidentally, she is a product of Sonoma County, which is one 
of my counties, and a product of our great schools up there. 
And her parents still live there, and welcome, Mimi.
    I'm very glad that H.R. 4496 uses current law as its 
foundation. I've been very concerned by proposals made by this 
administration to turn the Federal Vocational and Technical 
Education programs into post-secondary programs only. While I'm 
fully aware that many, many occupations these days require some 
post-secondary education--in fact, the great majority--we must 
not lose sight of the important role that Perkins funding has 
and will play in helping to prepare students for jobs following 
their graduation from high school.
    Not every high school student is ready to go directly on to 
higher education following graduation. Many who want to simply 
don't have the money to do so, and career training can prepare 
them for jobs that earn good salaries in order to finance 
further learning down the road. So we don't want to cut them 
short by not giving them that extra help.
    Some students are just not ready to spend additional time 
in a post-secondary school and, again, good career training 
ensures that we don't lose these students completely while they 
take a breath and get their bearings as an independent adult, 
and learn how important it is to get a higher education.
    You can be fairly sure, Mr. Chairman, that young people who 
get started on a decent job, a job that leads to a career, will 
return to school at some point during their lives, usually 
because they want to, and/or because their career demands it.
    So I want to make sure that any re-authorization of the 
Perkins Act clearly allows funding of good vocational and 
technical education programs, even if they do not necessarily 
provide a degree, and that Perkins funds can be used for 
counseling and educational materials for high school students 
for careers following high school.
    I also have a number of concerns, as I said earlier. One, 
about increasing access and support for special populations, 
and also for training women for non-traditional occupations. I 
saw that the accountability measure, which requires states to 
report on the success in preparing students for non-traditional 
occupations, is not in this bill. But I understand that it will 
be put back in by the time we come up to mark-up. I think 
that's very important. It's important to me because it also is 
the very least of what we should be doing to improve career 
choices and earnings for women. More than half of the workforce 
are female. Many of them--many, many of them--supporting 
families. And it only makes good sense to ensure that they are 
being prepared to earn a wage and receive benefits that keep 
their families independent of Federal subsidies.
    So I look forward to hearing from all of our witnesses, and 
to continuing to work with you, Mr. Chairman, so that we can 
report a re-authorization bill out of this wonderful 
Subcommittee that really meets the needs of all of our 
vocational and technical education students.
    Chairman Castle. Thank you, Ms. Woolsey, for your nice 
words. Hopefully we can still say nice words when we get all 
this said and done here in a few weeks or months or whatever it 
takes.
    We do indeed have a very distinguished panel of witnesses, 
as we mentioned, and we do thank each of you for coming today. 
And, at this time, I will introduce and welcome the Chairman of 
the full Committee of Education and Workforce, the gentleman 
from Ohio, Chairman Boehner, to introduce our first witness.
    Mr. Boehner. Thank you, Chairman Castle. It's my pleasure 
to welcome all of you on the witness panel, but, specifically, 
to introduce Dr. Bob Sommers. Dr. Sommers is the CEO of Butler 
Technology and Career Development Schools in Butler County, 
Ohio, and has been since 2001. And in this capacity, Dr. 
Sommers is directly responsible for leadership of a school with 
more than 6700 high school students and more than 7800 adult 
students annually.
    Major accomplishments of the district under Dr. Sommers' 
leadership include improvements in student and organizational 
performance, program expansion in high-end career technical 
programs, including teacher education and biotechnology, as 
well as a growth of enrollment in both the high school and 
adult programs.
    Prior to this position, Dr. Sommers was the associate 
director in the Office of Career Technical and Adult Education 
for the Ohio Department of Education. And, as I said before, 
Butler Tech is located in my home county, and I certainly 
appreciate the great work that Dr. Sommers is doing with 
vocational and technical education in southwest Ohio.
    Chairman Castle. Thank you, Chairman Boehner, and welcome, 
Dr. Sommers, pleased to have you here.
    Our second witness will be Mrs. Katherine Oliver, and she, 
Mrs. Oliver, is the Assistant State Superintendent for Career, 
Technology and Adult Learning. She leads the division of the 
Maryland State Department of Education dedicated to excellence 
and innovation in career and technology education and adult 
education. Mrs. Oliver serves on a variety of local, state and 
national advisory boards relating to education, and workforce 
development and participates in numerous professional 
organizations associated with career and technology education 
and adult learning.
    Ms. Mimi Lufkin has already been mentioned by the ranking 
member. Actually, you were identified as a product of Sonoma 
County--I thought you were some kind of wine there for a 
minute. I wasn't sure what we were dealing with.
    Ms. Lufkin. Oh, gee.
    Chairman Castle. But she is currently the Executive 
Director for the National Alliance for Partnerships in Equity, 
with the acronym NAPE. The organization is a consortium of 
state agencies providing national leadership and equity in 
education and workforce development. As the Executive Director 
for the National Alliance for Partnerships in Equity, Ms. 
Lufkin manages the organization's activities, publishes an 
electronic newsletter and website, plans an annual professional 
development institute, and presents at other national 
organization conferences.
    And our clean-up hitter will be Ms. Robin White, who has 
worked on the design, implementation, and evaluation of 
education requirement improvement efforts for almost 20 years. 
As Senior Program and Policy Director for the Academy for 
Educational Development, the National Institute for Work and 
Learning, Ms. White specializes in program evaluation as well 
as technical assistance and capacity building relating to 
research evaluation and performance measurement. From 2000 to 
2004, Ms. White served as co-director and lead author of the 
National Assessment of Vocational Educational Funding and 
Accountability Study. Prior to joining AED, Ms. White designed 
and directed school reform efforts in urban high schools and 
middle schools, and led state-wide school reform efforts 
through positions with the Connecticut Business for Education 
Coalition and the Commission on Educational Excellence for 
Connecticut.
    And we welcome and thank all of you again for being here.
    Before the witnesses begin to testify, I would like to 
remind the members that we will be asking questions after the 
entire panel has testified. In addition, Committee Rule 2 
imposes a 5-minute limit on all questions. And I think you have 
had the rules explained to you as well. You have 5 minutes, you 
have little lights there, green for four, yellow for one, red--
until it all stops somehow or another.
    [Laughter.]
    Chairman Castle. And we really do appreciate your being 
here. After that, we will go back and forth and take turns 
asking questions. And we look forward to your testimony.
    And Dr. Sommers, we're going to start off with you, sir.

  STATEMENT OF ROBERT D. SOMMERS, CEO, BUTLER TECHNOLOGY AND 
      CAREER DEVELOPMENT SCHOOLS, FAIRFIELD TOWNSHIP, OHIO

    Dr. Sommers. Thank you, Mr. Chairman, Congressman Woolsey, 
and Representative Boehner. I appreciate the introduction. And 
also, the other members of the Committee, thank you for the 
opportunity to testify in support of House Rule, or House 
Resolution 4496.
    I share my remarks on behalf of the Butler Tech Board of 
Education and the nearly 15,000 students who participate in our 
high school and adult education programs. H.R. 4496 is critical 
to America's continued global competitiveness. The Act builds 
on the academic foundation established by the No Child Left 
Behind Act, and provides our nation's youth and adults with the 
opportunity to acquire knowledge and skills essential to their 
economic productivity.
    The Act recognizes the importance of rigorous academics and 
the importance of technical skills on our future generation's 
success. Butler Tech students receive a college prep plus 
curriculum, a combination of rigorous academics plus rigorous 
career technical education, thus preparing them to be lifelong 
learners and economically productive citizens.
    H.R. 4496 is a catalyst for assuring students receive 
rigorous, challenging academic and technical instruction. The 
proposed changes embodied in H.R. 4496 are consistent with our 
business and education communities' request. The following are 
important, are improvements that we strongly endorse.
    The first is the inclusion of ``rigorous and challenging'' 
in the purpose statement, two, including baccalaureate degree-
based programs in the vocational definition, eliminating the 
separate tech prep provisions and blending these concepts into 
all programs, establishing consequences for institutions 
showing poor student performance, requiring the establishment 
of local accountability targets, and continued support of 
career information, so that we can assure youth and adults 
choose their careers based on good information, and not on the 
latest television series.
    While the proposed re-authorization is a great start, there 
are some minor adjustments that would further improve it. I 
share these points in my written testimony.
    I would also encourage you to consider several breakthrough 
provisions that could move career technical education forward 
more quickly. I outline several in my written testimony, but 
one is worth noting here.
    Student performance is very important, but the next 
generation of performance measures will have to include 
measures of program efficiency. Cost per pupil is no longer a 
meaningful measure. Reporting the cost of performance more 
accurately measures the efficiency by linking expenditures to 
student performance. This concept is too new to incorporate 
into current reporting systems, but we would call for voluntary 
involvement in the creation of what Butler Tech refers to as 
the Kalmus Ratio. The Kalmus Ratio is the intersect between 
student performance and expenditures.
    The quality and completeness of accountability issues is 
the most important issue facing Congress. If you get the 
accountability system right, everything else will occur 
naturally. Performance measures are the new leadership tool for 
Congress. If you provide clear performance expectations, local 
flexibility in program design, educators, parents, and business 
leaders will create outstanding educational experiences.
    Overall, the proposed accountability system is on target, 
and an improvement over the Perkins Act version. Some areas 
needing additional attention include the following: most of the 
measures are results-oriented, but the one asking us to report 
college credit earned by high school students is not. Research 
shows that college credit acquisition at the high school level 
is highly correlated to college attendance, and therefore that 
credit measure is redundant to the higher education attendance 
rate measure.
    Keep your focus on the higher attendance rate, and we'll 
make sure that programs are designed to seek not only college 
credit, but many other activities that are highly correlated 
with higher education attendance.
    The current Perkins legislation supports secondary schools 
serving high school students, adult workforce education, and 
also community colleges. The performance measures adequately 
address secondary and credit-based programming, but they fail 
to fully address customized training or short-term skill 
upgrade programs.
    And, finally, the state and local negotiations regarding 
performance levels should be changed to an every-other-year 
process. As a local education leader, I strongly endorse the 
provisions requiring locals to establish performance 
improvement goals, but I think an every-other-year process 
would be better.
    Finally, I'd ask, as you craft this legislation, you 
remember some key things. First, stay the course on the 
accountability system. Let the states build on what they've 
worked on in Perkins, and advance into the future. Be sure the 
accountability system maintains a strong career technical 
component. No Child Left Behind addresses academics, let this 
legislation add career technical competence to the public 
education agenda. After all, rigorous and challenging academics 
are necessary but no longer sufficient for citizens to be 
productive.
    Demand more from American education by expecting rigorous 
and challenging academics for all students, and high-quality 
career technical education for those who choose to participate. 
Support strong state leadership, and, finally, provide help for 
creating a new generation of career technical education 
assessments that are valid, reliable, rigorous, and highly 
correlated with needs.
    If you do all those things, we'll have a good piece of 
legislation that will advance not only career technical 
education, but the citizens of this country.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Sommers follows:]

 Statement of Dr. Robert D. Sommers, CEO, Butler Technology and Career 
             Development Schools, Fairfield Township, Ohio

[GRAPHIC] [TIFF OMITTED] T4193.001

[GRAPHIC] [TIFF OMITTED] T4193.002

[GRAPHIC] [TIFF OMITTED] T4193.003

[GRAPHIC] [TIFF OMITTED] T4193.004

                                ------                                

    Chairman Castle. Thank you, Dr. Sommers.
    Mrs. Oliver.

       STATEMENT OF KATHERINE M. OLIVER, ASSISTANT STATE 
SUPERINTENDENT, CAREER, TECHNOLOGY AND ADULT LEARNING, MARYLAND 
       STATE DEPARTMENT OF EDUCATION, BALTIMORE, MARYLAND

    Ms. Oliver. Good afternoon, Mr. Chairman, Congresswoman 
Woolsey, and members of the Subcommittee.
    Thank you for this opportunity to highlight successes in 
Maryland's career and technology education system, and to 
express my support specifically for the model sequences of 
courses as proposed in H.R. 4496.
    You've heard about what my responsibilities are in 
Maryland, but, in addition, I'm also a member of the 
Independent Advisory Panel for the National Assessment of 
Vocational Education, and serve on the board of directors of 
the National Association of the State Directors of Career 
Technology Education Consortium.
    My colleagues around the country and I commend you for the 
introduction of H.R. 4496, and support many of its recommended 
provisions. We believe the bill will ensure that our country 
can meet the needs of our education and economic systems by 
encouraging program improvement and innovation in career and 
technology education, while building on the successes of the 
current law.
    Specifically, we applaud the updated definition of 
vocational-technical education as it better reflects today's 
CTE program, the strength and accountability provisions, and 
the alignment of tech prep under the basic state grant. We also 
strongly support the model sequence of courses as outlined in 
the bill. This will be the focus of my testimony today.
    H.R. 4496 seeks to more fully develop the academic 
technical and employability skills of students, to promote 
rigorous course-taking and to increase linkages between 
secondary and post-secondary education. Model sequences of 
courses will help achieve these goals. Model sequences help 
students navigate the world of opportunity. They're like road 
maps that display the various routes for the journey to one's 
destination. They outline the classes necessary for high school 
graduation, and highlight the additional academic and CTE 
courses, as well as recommend other experiences, such as 
internships, that supplement classroom learning.
    Model sequences of courses help students investigate a 
variety of career options, while developing the academic and 
technical knowledge required for post-high school success. In 
Maryland, students are required to develop a 4-year high school 
plan of study, that includes the steps to prepare for careers 
that are appropriate to individual interests and experiences.
    Model sequences of courses help students as they develop 
this plan. They become a tool for parents to quickly and easily 
help their children make confident and informed decisions, and 
they serve as a tool, much like a compass, to make sure that 
students are headed in the right direction to achieve their 
goals.
    Maryland has a long and successful history with career and 
technology education programs of study. The inclusion of model 
sequences in Federal legislation will allow us to take this 
initiative to scale. In 1989, the Maryland Commission on 
Vocational-Technical Education called for a new model of CTE 
that prepared students for both employment and further 
education.
    Maryland has developed policies and procedures for state 
approval of local CTE programs. Only state-approved programs 
are eligible for state and Federal funding. This came about 
over a decade ago, when the Maryland State Board of Education 
identified the completion of an approved sequence of CTE 
courses as one of the capstone requirements to obtaining a 
Maryland high school diploma, placing it on a par with 
completion of the admission requirements for entry into the 
state university system.
    This designation has sent a very clear signal that state-
approved CTE programs must be of sufficient academic rigor to 
prepare students for success in post-secondary education in the 
contemporary workplace. Our Maryland Higher Education 
Commission imposes a similar approval requirement for post-
secondary CTE programs.
    Project Lead the Way, pre-engineering program, is an 
instructional pathway that prepares students for further 
education and careers in engineering and engineering 
technology. It includes a model course matrix, including the 
required CTE courses, and the recommended academic and elective 
courses to complete a student's educational experience. It's 
provided in my written testimony.
    A key factor in ensuring a quality CTE system is the 
important balance between state-approved programs of study and 
local control over the delivery and innovations of that 
program. In Maryland, a visionary panel for better schools 
recommended a voluntary state curriculum to guide local school 
system academic courses of development. Likewise, model 
sequence of courses can provide a framework for local CTE 
program development as well.
    While the state directors of CTE and I are generally 
supportive of H.R. 4496, we do not and cannot support the 
proposed 60 percent cut in state and local administration 
funds. This cut is especially troublesome in light of increased 
responsibilities assigned to the state under the bill.
    In conclusion, H.R. 4496 enables states to advance progress 
started under Perkins III, while promoting new innovations such 
as these model sequence of courses. These changes will drive 
improvement in CTE, and we think these model sequences will 
focus the Federal investment on effective programs that meet 
the needs of our students and economy. Thank you.
    [The prepared statement of Ms. Oliver follows:]

Statement of Katharine Oliver, Assistant State Superintendent, Career, 
Technology and Adult Learning, Maryland State Department of Education, 
                          Baltimore, Maryland

[GRAPHIC] [TIFF OMITTED] T4193.005

[GRAPHIC] [TIFF OMITTED] T4193.006

[GRAPHIC] [TIFF OMITTED] T4193.007

[GRAPHIC] [TIFF OMITTED] T4193.008

[GRAPHIC] [TIFF OMITTED] T4193.009

                                ------                                

    Chairman Castle. Thank you, Mrs. Oliver. We appreciate 
that.
    Ms. Lufkin?

STATEMENT OF MIMI LUFKIN, EXECUTIVE DIRECTOR, NATIONAL ALLIANCE 
     FOR PARTNERSHIPS IN EQUITY, COCHRANVILLE, PENNSYLVANIA

    Ms. Lufkin. Good afternoon, Chairman Castle, Congresswoman 
Woolsey, and other Committee members. Thank you for the 
invitation to appear before you today.
    I bring you the perspective of someone who has been 
involved in vocational education since the late 1970's at the 
local, state and national level, as a high school agriculture 
teacher, a teacher educator, a state educational agency staff 
member and, for the past 10 years, as the Executive Director of 
the National Alliance for Partnerships in Equity.
    I will focus my testimony on issues in H.R. 4496 that 
impact the participation and success of special population 
students in career and technical education. I compliment the 
Subcommittee on its use of current law as the basis for the 
development of H.R. 4496. By starting from current law, the 
Committee has the opportunity to continue the field's efforts 
in improving the quality and effectiveness of CTE, which 
started in 1988, while making the appropriate changes to re-
focus these efforts in a way that prepares all students for the 
future.
    H.R. 4496 substantially increases the role and 
responsibility of states while decreasing the amount of state 
administration funding by 60 percent. To expect states and 
locals to do more with less is unrealistic. The elimination of 
the requirements that a state's equity coordinator in 1998 
illustrates the fact that these kinds of cuts can have 
devastating effect on states' ability to provide leadership. No 
state continues to have a full-time person in this position. It 
is certain that asking states to do more with less resources 
will continue to negatively impact their ability to focus on 
their responsibility of ensuring the success of special 
population students in CTE. We urge the Subcommittee to restore 
the amount of funding for state and local administration and 
the maintenance of overt language to current law.
    Throughout H.R. 4496, language is consistently added to 
emphasize the transition of secondary students to post-
secondary education. At least 82 percent of high school 
graduates either work exclusively or work while attending 
college. We must give students more options, not less. We urge 
the Committee to strengthen language throughout the bill to 
include employment upon graduation from high school as a 
positive outcome for secondary CTE students.
    The bill does little to address the needs of adults re-
entering the workforce or in need of skill upgrading for career 
advancement. Post-secondary CTE plays a vital role in the 
nation's economic and workforce development system, and is the 
most reliable way out of poverty for many adults. We urge the 
Committee to include programs for single parents, displaced 
homemakers, to attain marketable skills for high-wage, high-
skill occupations, leading to self-sufficiency as a required 
use of local funds.
    H.R. 4496 makes substantial changes to the accountability 
system. While separating secondary and post-secondary 
accountability measures is a positive step, the elimination of 
the indicator related to participation and completion of CTE 
programs that lead to non-traditional careers at the secondary 
level is a serious mistake. Fortunately, the Subcommittee has 
indicated its reconsideration of this decision and the 
likelihood that the indicator will be reinstated.
    Sex segregation in CTE programs continues to be an issue 
across the nation. These stark patterns are not the product of 
independent choices made by young men and women alone. The data 
show that schools have not adequately fulfilled their 
responsibilities to monitor and address the various forms of 
discrimination that can limit girls' and boys' access to non-
traditional CTE programs.
    Ultimately, this results in substantial disparities in wage 
earnings, starting females on the pathway to economic 
disadvantage. We cannot ignore 50 percent of the potential 
workforce of our nation's economy if this nation is to remain 
globally competitive.
    We urge the Committee to reinstate participation and 
completion of CTE programs that lead to non-traditional careers 
as a performance measure for secondary programs, to include 
support services for students pursuing non-track careers as a 
required use of local funds, to include provisions in Section 
118, Occupational and Employment Information, that ensure 
unbiased career guidance and academic counseling, and to 
include provisions in national activities that support research 
and dissemination on the participation and outcomes of students 
in CTE, and the identification of model programs and practices 
that eliminate sex bias and stereotyping.
    H.R. 4496 retains the current provisions in the Perkins Act 
for special population students but makes no additions for 
improving the ability of states and locals to ensure their 
success. States are required to report on the performance of 
special population students on the core indicators, but are not 
held accountable for their improvement. As a result, data is 
not systematically used to drive program improvement efforts.
    We recommend that the Committee include language in Section 
113 requiring states and locals to disaggregate student 
performance data and to make continuous and substantial 
improvement in the performance of special population students, 
to also include provisions in the incentive grants to give 
special consideration for awarding grants for those locals and 
states that effectively close performance gaps of special 
populations, and make programs for special populations a 
required use of local funds.
    In closing, let me again thank you for the opportunity to 
share my thoughts that will help ensure success of all students 
in career and technical education. This legislation has the 
opportunity to help fulfill the mission of the Federal role in 
education, which is to assure access to equal educational 
opportunity for every individual. Thank you.
    [The prepared statement of Ms. Lufkin follows:]

  Statement of Mimi Lufkin, Executive Director, National Alliance for 
           Partnerships in Equity, Cochranville, Pennsylvania

[GRAPHIC] [TIFF OMITTED] T4193.010

[GRAPHIC] [TIFF OMITTED] T4193.011

[GRAPHIC] [TIFF OMITTED] T4193.012

[GRAPHIC] [TIFF OMITTED] T4193.013

                                ------                                

    Chairman Castle. Thank you, Ms. Lufkin.
    And Ms. White.
    Ms. White. Thank you. Good afternoon, Congressman Woolsey--
excuse me, Mr. Chairman, Congressman Woolsey, and other 
Committee members. It's not on? Oh, thank you. Can we start 
again?

 STATEMENT OF ROBIN WHITE, SENIOR PROGRAM AND POLICY DIRECTOR, 
  ACADEMY FOR EDUCATIONAL DEVELOPMENT, NATIONAL INSTITUTE FOR 
              WORK AND LEARNING, WASHINGTON, D.C.

    Ms. White. Good afternoon, Mr. Chairman, Congresswoman 
Woolsey, and other Committee members.
    As noted by Chairman Castle, I am here today to provide 
testimony on Tech-Prep research conducted as part of the NAVE 
funding and accountability study. This evaluation, conducted 
with colleagues, AED and Westat, included written surveys of 
state vocational education and Tech-Prep administrators, 
telephone interviews with state vocational administrators, and 
case studies at the state and local levels.
    The evaluation focused primarily on implementation of the 
new Perkins Funding and Accountability Provisions. However, my 
colleagues and I expanded the scope of our study at the request 
of NAVE staff to take a broader look at how Tech-Prep 
definitions and implementation strategies relate to 
measurements of participation and outcome. More detailed 
information will be available in our forthcoming report, The 
Structure and Challenges of Vocational Funding and 
Accountability Systems.
    I'm honored to be here today to describe the findings of 
this study and possible implications for policy, specifically, 
the re-authorization of the Perkins legislation.
    Our survey results focused primarily on state mechanisms 
for allocating Tech-Prep funds and definitions of Tech-Prep 
programs and students. Case studies and telephone interviews 
offered opportunities to explore how Tech-Prep was actually 
implemented in specific states and consortia, and how 
implementation was affected by the Perkins III funding and 
accountability provisions.
    Taken together, these data suggest that Tech-Prep is 
essentially a catch-all term, used to describe a wide array of 
activities, initiatives and efforts, most of which appear to 
fall considerably short in one or more respects of the 
statutory definition of a Tech-Prep program. We found that 
Tech-Prep programs that followed a distinct cohort of students 
through a four- or 6-year sequence of instruction were scarce. 
The absence of viable mechanisms for tracking high school Tech-
Prep students into community colleges by area of vocational 
study was a major impediment to defining a seamless two plus 
two career pathway, and therefore to documenting student 
outcomes. A majority of state survey respondents indicated that 
they required local consortia to use specific approaches and 
definitions that should result in well-defined Tech-Prep 
sequences, but site visits and interviews produced few examples 
where this actually occurred.
    Tech-Prep reporting was generally inadequate at both the 
secondary and post-secondary levels. Although states typically 
defined secondary Tech-Prep students in terms of enrollment in 
or completion of articulated vocational courses or program 
sequences, many still struggled with the concept of what 
exactly constitutes a post-secondary Tech-Prep student. Even 
where definitions were in place at both levels, many consortia 
were unable to count the number of students who met the 
definition.
    Although most states supported having a definition of a 
Tech-Prep student, the study team found little evidence to 
support the widespread use of these definitions or alignment of 
these definitions with statutory intent. Definitions of what it 
meant to participate in Tech-Prep appeared to vary within 
states and even within consortia, and the applications of 
definitions sometimes failed to distinguish Tech-Prep students 
from other vocational students.
    In states with loose definitions of Tech-Prep, high schools 
sometimes identified 60-100 percent of their vocational 
students as Tech-Prep participants, regardless of whether they 
were enrolled in programs with articulation agreements.
    In survey responses, nineteen states reported that students 
who took or completed one or more vocational courses, whether 
articulated or not, met the criteria for Tech-Prep 
classification. Another eight states reported that all 
vocational students were considered Tech-Prep, while one state 
indicated that all secondary students who had not chosen 
college prep were considered Tech-Prep. Two states avoided the 
issue entirely by counting all secondary students as Tech-Prep.
    The number of Tech-Prep students who actually received 
articulated credit at the post-secondary level appears to be 
quite low. The reasons given for this included requirements 
that a student complete additional courses or score at a 
certain level on placement tests, the length of time elapsed 
between high school completion and college enrollment, and 
policies that required the students to identify the collegiate 
courses they had taken and make four more requests for credit.
    Because the two plus two and two plus four programs of 
study were scarce, Tech-Prep efforts frequently overlapped 
those of regular vocational education. Study team found that 
many states have worked to develop articulated course sequences 
for vocational education outside the context of Tech-Prep. It 
was noted previously, state and local reporting on Tech-Prep 
participation and outcome frequently fail to distinguish Tech-
Prep students from others.
    Finally, the reported uses of Tech-Prep funds typically for 
equipment, supplies, salaries, and the startup of new programs 
were quite similar to those reported for Perkins Title I basic 
grants.
    In conclusion, I want to give you the recommendations that 
our forthcoming report includes concerning Tech-Prep. We 
suggested three options that Federal policymakers might want to 
consider. Requiring states and consortia to document rates of 
student completion of four- and 6-year Tech-Prep sequences; 
investing in the development of software and other mechanisms 
to facilitate tracking secondary Tech-Prep students into post-
secondary institutions; and eliminating Tech-Prep as a separate 
title and re-allocating Tech-Prep funding to a wider range of 
vocational education reform initiatives at the state and local 
levels. Thank you.
    [The prepared statement of Ms. White follows:]

 Statement of Robin White, Senior Program and Policy Director, Academy 
for Educational Development, National Institute for Work and Learning, 
                             Washington, DC

[GRAPHIC] [TIFF OMITTED] T4193.014

[GRAPHIC] [TIFF OMITTED] T4193.015

[GRAPHIC] [TIFF OMITTED] T4193.016

[GRAPHIC] [TIFF OMITTED] T4193.017

                                ------                                

    Chairman Castle. Thank you, Ms. White, and thank you for 
sort of rushing through there at the end.
    We appreciate the information all of you gave. Actually, 
there's a lot included in that 20 minutes of testimony that you 
gave us, and I'm sure staff is going to have a field day trying 
to go over it all and trying to figure it all out. But I'm 
going to keep my question a little more general. I'm going to 
try to take another 45 seconds for this question, and give you 
each a minute, and I'm going to ask you about 10 minutes' worth 
of question here, so be careful.
    I think, Mrs. Oliver, you mentioned parents, but I want to 
make sure, you know, legislation, that we are not doing 
anything that would--well, not only would harm having the 
parental involvement, but also would encourage parental 
involvement, and also the early choice of children. I very 
often worry about that in terms of some of our vocational 
education, enforcing early choices and where we're going with 
it. I want to make sure that we're not doing anything to harm 
that legislation or comments you have on that in general.
    I'm also concerned about the academic versus the vocational 
side of all this. I just noticed that, in my judgment, the 
state of Delaware, the educational side, the academic side of 
vocational side has just improved dramatically in recent years, 
which I think is great. But I also realize, in terms of jobs, 
that young people have to be trained for, in some cases, 
economically more advantageous, and if some went to college, 
there's some argument for that, and I'm trying to make sure 
that we're not throwing out the baby with the bath water. I 
don't think every vocational school in the United States needs 
to become Harvard, and I am concerned about anything our 
legislation may have that impacts that.
    And the other question may not be directly related to our 
legislation, but, in commenting on your own schools, I 
mentioned on, and always on the subject on full-time versus 
part-time, in vocational education schools, if you have 
comments on that, I would appreciate it. I'm going to try to go 
down the row, you've got about a minute each, so answer what 
you will, in that minute. Dr. Sommers.
    Dr. Sommers. Yes. First of all, parents are always 
involved. If you think about it, all of programs are choice. If 
we don't connect with parents and students, we're not going to 
have students enrolled. And so that one's solved. Too early a 
choice, we actually think the greatest challenge is that 
students don't think about careers soon enough. Most of our 
students don't choose specific careers. We work in broad career 
clusters.
    We've never had any complaints from parents that kids are 
going to work too quickly and being productive. We have noticed 
that a lot of parents complained about what they call NIKEs, No 
Income Kids with an Education. So we've really pushed career 
development early on, not as a forced issue, but as a choice 
that they make.
    By the way, we don't seem to have any trouble at all 
forcing kids to make a single path choice of college prep, 
which only has a single mode of operation that's successful, 
and that's to succeed in college. We prefer the college prep 
plus, where we have more options when they leave, including 
college.
    The academics, we don't have too much focus on academics, 
we have too much focus on academic classes. Lowell Milken put 
out, at the Milken Institute, that the NAPE assessment has been 
virtually unchanged over the last fifteen years, while, at the 
same time, we've had dramatic increases in the number of 
academic courses taken. I think we've made a tremendous error 
in equating course-taking with academic prowess, and that 
career technical education captures the excitement of a 
student's mind, and engages them so that academics come 
naturally. So if we can get those two together, and quit 
looking at them as either-or, and make them integrated, we'll 
be in good shape.
    Chairman Castle. Thank you. Mrs. Oliver.
    Ms. Oliver. My comments indicated, I think it's important 
that parents are a part of their children's educational 
programs. We--it is one of our goals at the Maryland State 
Department of Education to ensure that there are strategies for 
parental involvement. We can do that at the policy level by 
helping that they, ensuring that they help us develop our 
programs and are knowledgeable of what, what is there to be 
offered there for their students and that they visit their 
schools on a regular basis and sign off on those students' 
programs of study. We do that in our high schools at work 
sites, and it's a very effective practice.
    In terms of early choice, I prefer us to look at it as 
focus, helping students focus and see relevance on what study, 
in terms of academics and technical subjects, is all about, 
helping them see that high school is a means to an end, not an 
end in itself, and that their future is not just getting into a 
college, but it's getting into a college to do this. So I would 
look at meeting to ensure we have lots of flexibility for our 
students to make a variety of choices, but to help them focus.
    I don't think it's academic versus technical education. I 
beg to differ with you. I think that--
    Chairman Castle. Hey, you're not differing with me, I was 
just asking a question.
    Ms. Oliver.--that in today's world, our employers are 
telling us that for us to be a force for their employees to be 
successful that our graduates need to come to the workplace 
with a new set of academic skills. Basic math is not 
computation, basic math is far more sophisticated than that, 
and every student deserves to have the opportunity to match--
    Chairman Castle. Integration for the workplace, basically.
    Ms. Oliver. Integration. And, last, full-time versus part-
time. In Maryland, we deliver career and technology education 
in a variety of settings. Some of them are full-time career 
technical high schools, others are shared-time facilities. Both 
can work, and both just need to be--we need to exploit--
    Chairman Castle. Is one better?
    Ms. Oliver. I--it's easier for me to have performance data 
from the full-time, so I tend to like that.
    Chairman Castle. OK.
    Ms. Oliver. But I think that if we--
    Chairman Castle. Dr. Sommers is shaking his head. One is 
not better than the other, so--
    Ms. Oliver. If we ensure--
    Chairman Castle. I don't want to start a debate there, 
but--
    Ms. Oliver. If we ensure that our systems in place work for 
our students, then it doesn't make a difference whether it's 
full-time or shared-time.
    Chairman Castle. Thank you.
    Ms. Oliver. As long as the process fits the student.
    Chairman Castle. Thank you. Ms. Lufkin, Ms. White, I'm 
going to have to ask you to be relatively brief, since I'm sort 
of out of time here.
    Ms. Lufkin. OK. Well, I'll just say that everything that my 
former colleagues have mentioned I would support whole-
heartedly, and want to sort of focus a little bit on the 
parental issue, because, when it comes to the selection of non-
traditional careers or looking at career option, the parents 
are very important, and having them involved is one of the key 
elements that we've discovered in terms of looking at this 
issue.
    The other thing is about what we would like to see is 
students to have more choices and to explore careers in a 
broader range for themselves, and all of those, I think, are 
supported within the bill, especially the strengthening of 
language in the career guidance and counseling section.
    Chairman Castle. Good, thank you. Ms. White.
    Ms. White. Yes, thank you. Since our study did not look at 
parental involvement, I will save you some time on that one, 
Mr. Chairman.
    With regard to the early choice issue, I would just like to 
underscore our concern about the choices made by students who 
enter Tech-Prep with the goal of entering post-secondary ed 
with advanced standing. As I indicated in my very rushed 
testimony, we found that very few students actually appeared to 
gain those credits when they entered post-secondary education.
    Chairman Castle. Thank you. Thank you all very much, and 
we'll turn to Ms. Woolsey now.
    Ms. Woolsey. Mr. Chairman, Mr. Van Hollen has--would like 
to say something about Mrs. Oliver, and then he has to leave.
    Mr. Van Hollen. Well, thank you, Mr. Chairman, and Ms. 
Woolsey, and thank you for holding this third in a series of 
hearings on this important issue. I want to thank all of the 
witnesses.
    I just wanted to especially thank Mrs. Kathy Oliver from 
the state of Maryland for being here, and I appreciate all the 
work that you've done with our office and your input on many 
issues, including what you've talked about at the hearing. But 
I just wanted to welcome you and thank you for the work you've 
done in our state on these important issues. Thank you, Mr. 
Chairman.
    Chairman Castle. Thank you, Mr. Van Hollen. Ms. Woolsey, do 
you want to go now, or should I go to Mr. Osborne and come back 
to you?
    Ms. Woolsey. I prefer you go to Mr. Osborne.
    Chairman Castle. OK. Mr. Osborne, are you prepared, sir?
    Mr. Osborne. I'm sort of prepared.
    Chairman Castle. Well, I knew you were prepared, but I 
didn't know if you were prepared to go at that moment.
    Mr. Osborne. I don't have a game plan, so thanks for 
asking. Thank you for being here today and, I guess, Ms. 
Lufkin, I would just, it seemed like you had--I think I counted 
25 recommendations. And so, I guess, my thought is, do you like 
the basic bill, or do you think we ought to start over? This is 
not a facetious question. I mean, it did seem like you had a 
lot of objections, and also I'm a little bit concerned about 
what the cost of your--have you added up what it might cost to 
implement some of these recommendations?
    Ms. Lufkin. First let me say that I think--I complimented 
the Subcommittee on starting from current law, because I think 
the current law has some very strong provisions in it regarding 
support for special population students. Most of the 
suggestions that I made are minor language tweaks in the law 
which basically just continue to emphasize issues around 
serving special population students and the inclusion of 
language that encourages locals to provide programs for them.
    The accountability system in current law and in the bill 
that you are offering basically requires that there's a 
disconnect with the language in the accountability system and 
the local uses of funds.
    So the suggestion in terms of providing required uses of 
fund language around supporting special population students and 
providing programs for students pursuing non-traditional 
careers really is supported in the accountability section.
    As far as the amount of money it would take to do any of 
these programs, I wouldn't expect that it would shift resources 
in any other way, other than to emphasize recruitment 
activities and support services for students already in career 
technical education that need those additional supports to be 
successful.
    Mr. Osborne. OK, well, I'm not conversant enough with the 
bill to separate out minor technical changes from what was made 
here, so I assumed that you were looking at quite a few changes 
that were fairly significant.
    One other question, and this would be for Dr. Sommers and 
Mrs. Oliver. What do you feel accountability looks like for 
vocational and technical education? I mean, I understand what 
accountability looks like under No Child Left Behind, you know, 
grades three through eight, but I'm not totally very 
understanding of what this might mean for vocational and 
technical education, and I know you both mentioned that it's 
desirable, but how do we achieve it?
    Dr. Sommers. The question of what it looks like is very 
similar to No Child Left Behind except that we focus on career 
technical education. Career technical is a body of knowledge 
just like math, science, English. It requires a certain amount 
of programming and success on the student's part to acquire 
that knowledge and information and skill sets.
    And so, to the extent that we can develop high-quality 
career technical assessments, either performance or written, to 
the extent that we can clearly identify that as an objective in 
the legislation, which it does, you can drive us to design 
curriculum program services and everything else to make that 
successful for all the students that enroll and choose to.
    The actual performance measures are the key indicator of 
whether we're making progress. And actually I encourage any 
kind of parts of the legislation kind of focus on that, but 
actually leave lots of flexibility at the local level, because 
if I can deliver it in many different ways--for example, full-
time and part-time.
    I actually run a full-time campus where full-time students 
are engaged in lots of programs including high-end academics. 
I've got a whole cadre of faculty that teach in part-time 
programs. They both meet a unique student population that, if 
you forced us to do one or the other, we would fail miserably 
at. So the performance measures actually drive what we do.
    You just build them right on top of the academics and No 
Child Left Behind and we'll be very successful.
    Mr. Osborne. But these would be formulated by you folks, is 
that correct?
    Dr. Sommers. Actually, in most cases, we would coordinate 
that with the state and the local. I strongly encourage some 
specificity in the performance measures which allows for 
national comparability and for us to have the opportunity to 
find first-class programs.
    Ms. Osborne. Again I don't know enough about it to ask an 
intelligent question, but do you have a corresponding test of 
some type that would correspond with the NAPE, or would you be 
involved with the NAPE test at the high school level at all?
    Ms. Oliver. In Maryland, we have aligned our career and 
technology education accountability system with our K-12 
accountability system, so that it is in lock-step with that. 
Our approach to program improvement with our local recipients 
at both the secondary and post-secondary level mirrors--has 
those systems determining every year what their improvement 
will look like, and how they will be using their Perkins 
dollars, their local dollars, their state dollars, to support 
the strategies to increase that improvement.
    Right now, the NAPE is not available to us in terms of, in 
our state, for twelfth-grade students in career and technology 
education programs. However, we are a member of The High 
Schools that Work initiative, where we do use a NAPE-like 
assessment that measures twelfth-grade achievement in reading, 
math and science, and that is a very valuable tool for career 
and technology education as we look to improving academic 
performance, because we are able then to--we assess these 
students in the January of their senior year, and it provides 
us, in addition to teacher surveys and student surveys and 
transcript surveys, an opportunity to really dig into the data 
that will direct the strategies that need to be put into place 
to improve student achievement.
    Mr. Osborne. Thank you, Mr. Chairman, thank you.
    Chairman Castle. Thank you, Mr. Osborne. Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman. Ms. Lufkin and all of 
you, really. I want to know how students are advised in these 
programs. I mean, how do they influence--how do you know there 
is going to be a job there after they go in a particular 
direction? Are you doing outreach with your communities? I'll 
start with you, Mimi.
    Ms. Lufkin. Certainly. I think you're talking about sort of 
the career guidance and counseling procedures that occur and 
how students make decisions regarding their career choices. And 
I think if you were to go across the country and walk into any 
secondary school or post-secondary institution, you would see 
something potentially different. And some of them are more 
successful than others, and I think those who target resources 
toward these efforts are more successful.
    Dr. Sommers and Mrs. Oliver both mentioned workplace 
learning as part of an effective CTE program, and we also 
believe that students having access to job shadowing 
experiences, mentoring activities, role models, the real world, 
is really very important.
    I don't know that I would say that that's happening in 
every career and technical education program across the 
country, but the kinds of language that's been included in this 
bill certainly would continue to drive those kinds of positive 
efforts. It's very, very important, because what typically 
happens in a lot of situations is that students will choose a 
career based on peer pressure or on media pressure, and not 
necessarily on informed decisionmaking. And that's something 
that is very important to us, particularly as it revolves 
around access to careers that could lead to economic self-
sufficiency and students making decisions that are long-term 
decisions about their own future. And oftentimes that kind of 
information is not available.
    Ms. Woolsey. Ms. White?
    Ms. White. Yes, thank you. OK, one of the things that 
concerned us, particularly as we looked at Tech-Prep in 
implementation across the country, was the inability to get a 
clear picture of the outcome achieved by these programs. By 
statute, Tech-Prep programs are supposed to lead to high-skill, 
high-wage employment or further education. Since so many states 
and consortia were unable to determine who was participating in 
a Tech-Prep program, it was very hard to track whether they 
actually got a job, much less one that would be meeting the 
statutory requirements.
    Ms. Woolsey. Is part of that requirement that there are 
actual jobs in the community?
    Ms. White. They are supposed to develop the articulation 
agreement and the programs--the consortia are supposed to 
develop these programs by looking at the labor market area. 
Originally, in the Perkins II legislation, Tech-Prep programs 
focused primarily on technical education programs. More 
recently, they have expanded into a much broader array of 
vocational offering child care, human resources, fashion and 
interior design, for example.
    Ms. Woolsey. Dr. Sommers?
    Dr. Sommers. Yes.
    Ms. Woolsey. When you are answering, I also want to know 
if, for example, if there's a shortage of auto repair people 
that know anything about technology. I mean, that's a big--is 
that--tell me if that's what we're talking about.
    Dr. Sommers. Mr. Chairman, Ms. Woolsey, I can answer the 
question pretty simply, because I'm at the local level and we 
deliver this, so I'm going to tell you, we start with a career 
development program, we invest about 350,000 a year in K-8 for 
career exploration, career information, not to force kids into 
a career, but to make sure they understand the full array.
    Literally, the best program enrollments are the where the 
TV shows are, and we're trying to correct that. I mean, I've 
got forensics and biotechnology out my ears because of CSI. So 
we've got to put real clear performance measures--when we beat 
those odds, then we're in good shape.
    Career development then leads into programming. We know 
well in advance what the students' interests are and also we 
have business advisory councils both at the program level and 
at the broad-based level. We actually hire labor market 
analysts that constantly measures labor markets, not only the 
Bureau of Labor Statistics, but also our internal community 
operations. And so we adapt programs to high-demand, high-wage 
jobs. And also in demand, sometimes they're not high-wage. 
We've got teacher education academies, after all, but we look 
for places where we have needs and services, and we try to 
match those two up.
    We see career development as the single most important 
factor in meeting the non-traditional enrollment problem. We've 
made progress in that at Butler Tech. In fact, in our adult 
enrollments, we've got some of the highest percentages of non-
traditional in the state, and we're proud of that. So all those 
fit together. Good career development, high quality programs 
that are tailored to long-term needs, and finally the labor 
market analysts guiding us. In all of those, we try to do our 
best to make sure that students have choices of college and 
careers in the local regional areas.
    Ms. Woolsey. Can Mrs. Oliver answer that? Thanks.
    Ms. Oliver. In order for a CTE program to be approved in 
our state, labor market demand has to be documented. We work 
collaboratively with our Department of Labor Licensing and 
Regulation and our Department of Business and Economic 
Development, as well as our business communities, to help us 
further refine and identify the specifics of that demand. In 
addition, we are now in Maryland working with industry shortage 
areas. We had a health care summit last year. We're working on 
aerospace, on manufacturing, other key areas that are of 
importance to Maryland's economy and to the opportunities that 
are available for its citizens.
    We are--students are advised in a variety of ways. We have 
a career development model that provides outcomes for our 
school systems to work with to ensure that students understand 
who they are, what their interests are, how to explore career 
opportunities. We also promote teacher advisor programs, 
because clearly there are just not enough guidance counselors 
to go around.
    So we have many of our high schools that are working on 
improvement opportunities, converting to teacher advisors, 
where teachers work with a group of students beginning in the 
ninth grade and all the way through their twelfth-grade 
experience, to advise students on all aspects of their high 
school program, but career development in particular.
    Ms. Woolsey. So I'm sure you're all going to say yes. Part 
of this is, like, you can encourage a kid to learn to be a 
technician knowing that they really in the long run want to be 
an engineer, but they could be the Tech-Prep at the lower level 
and then go on? I mean, it's not an end in and of itself.
    Dr. Sommers. Fifty-four percent of all the students that 
are completers in our programs attend higher ed. They're there 
9 months later, compared to our high schools in the area, we're 
the second highest, if you compare their actual attendance, not 
what they say they're going to do, but actual attendance. So 
we're very pleased at the choices they have. By the way, the 
majority of them are employed at the same time, because they 
have to pay for the process.
    Chairman Castle. Thank you, Ms. Woolsey. Now, let me just 
ask a follow-up question or two. And that is, about the 
testing. I just want to make sure I understand the testing. I 
assume that--and it was actually Mrs. Oliver answering this 
question--but I assume that your students participate in the 
NAPE testing as it is applicable in the sampling that's done 
for the NAPE in your various jurisdictions. And I assume on No 
Child Left Behind that most of it is not applicable, because of 
the age related, because of the testing in grade three through 
eight, but that as it is applicable in high school, that you, 
again, you would participate and be graded on that basis for 
that. Is that also correct?
    Are there are other, are there specialized, first of all, 
are there any specialized tests on a national level that you 
take that would be similar to NAPE or No Child Left Behind for 
vocational education in particular?
    Dr. Sommers. Actually, there's a whole series--NAPE, of 
course, has a very finite set of courses--math, science, 
English, that sort of thing. Career technical tends to be a 
little more diverse, and so you have a variety, but we rely 
heavily on the industry credentialling. We also have 
standardized career technical assessments in the state of Ohio 
that have been developed by the state. We think that one of the 
things this piece of legislation could do is push for some kind 
of voluntary national career technical assessment that actually 
is lined out by Jean Bottoms and some communications with you.
    Chairman Castle. Is there anything like that now?
    Dr. Sommers. There's no across the board, and I think that 
would be an excellent first step to kind of get at those 
things. We also--by the way, the No Child Left Behind 
requirements, OGT, are not sufficient for our programs. We have 
to rely on ACT and Compass for academics, because most of the 
graduation tests that comply with No Child Left Behind are 
actually at about the tenth or eleventh grade, to give them 
time to assess, and our programs tend to be at the tenth, 
eleventh and twelfth grade.
    Chairman Castle. Mm-hmm. Very good.
    Ms. Woolsey. Well, I have one more question. The Perkins 
Act--how much of the funding goes to adult education? I mean, 
once, a re-entry, a woman.
    Ms. Oliver. In our state, funding is not designated by--our 
funding goes to both post-secondary and to secondary, and 
that's how the funding is split. Adult students can participate 
in either a program at the secondary or post-secondary level. I 
wouldn't have data on what is exactly spent on adults.
    Ms. Woolsey. But it is available?
    Ms. Oliver. It could be available.
    Ms. Woolsey. What does that mean?
    Ms. Oliver. Well, it would, we would have to--it depends 
upon the definition of an adult. I mean, in general, all of our 
post-secondary programs do serve adults, but we do not have 
adult programs like Ohio has, that is a, really a third system 
in terms of CTE or a third delivery mechanism. In Maryland, 
it's through one of two deliveries, but adults are welcomed in 
both areas. It would be difficult for me to be able to 
disaggregate spending on adult learners.
    Dr. Sommers. Yes. Actually, in the state of Ohio, it's 
about 85, 80-85 percent secondary, 15 percent split between 
community colleges and adult workforce. We actually serve more 
adults in the adult workforce than the community colleges do in 
our state.
    As I recall, you tend to vary in the west. They tend to be 
much more on the post-secondary side; in the east, it tends to 
be more on the secondary, most because of population densities. 
It's harder to do career technical in very small schools. So, 
actually adult workforce works very closely with community 
colleges in the state of Ohio and as long as you provide 
flexibility in the formula as it is now, it will be adaptable.
    Ms. Lufkin. I can talk to California, the way California 
does it. And that is, it sounds to me like it's fairly similar 
to Ohio. When the Perkins Fund comes to California, it's split 
50-50 between the State Department of Education and the 
California community college chancellor's office. There are in 
secondary schools, adult education programs that are available 
for adults to participate in career and technical education on 
secondary school campuses, typically, and in regional 
occupational programs throughout California.
    As far as the post-secondary component, then those, the 50 
percent of the funds then go to community colleges. As far as 
adult re-entry programs or re-entry programs for women, for 
example, many of those programs typically are found at the 
community college campuses. And I think that's probably more 
likely true across the country. And also, at the secondary 
level, you would more likely see teen parent programs with--in 
terms of trying to access career and technical education. And 
oftentimes when those programs are held at alternative 
education sites, those students do not have access to quality 
career and technical education, which is an issue, especially 
for young parents.
    But in terms of the resources being available, they are 
available for adult women typically in the community college 
system.
    Ms. White. Our forthcoming NAPE report includes a chart 
that indicates the split between secondary and post-secondary 
Perkins expenditures in each of the states and territories. I 
don't remember the exact breakdown. I do not have that chapter 
with me. But more states spent the majority of their money at 
the secondary level. If you would like, I can send that chart 
to you.
    Ms. Woolsey. Well, that's good information. OK. I'd like to 
have that. Thank you. Thank you, very much. Thank you, Mr. 
Chairman.
    Chairman Castle. Thank you, Ms. Woolsey. And let me thank 
the panel.
    I think we've run out of members and questions at this 
point, so we'll bring this to a close. We are going to be 
voting actually fairly soon on the floor. Again, your original 
testimony was chock-full of all kinds of information that we 
will take under consideration as we continue to review the 
legislation. As Ms. Woolsey has indicated, this is, even though 
we've introduced it, we're still in the stage where we can 
refine it, if you will. And we are going to be working on that. 
So your testimony is very valuable in helping with that.
    We do appreciate each of you being here today. We stand 
adjourned.
    [Whereupon, at 3:35 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

 Statement of United Tribes Technical College, Submitted for the Record

[GRAPHIC] [TIFF OMITTED] T4193.018

[GRAPHIC] [TIFF OMITTED] T4193.019

[GRAPHIC] [TIFF OMITTED] T4193.020

[GRAPHIC] [TIFF OMITTED] T4193.021

[GRAPHIC] [TIFF OMITTED] T4193.022

                                 ______
                                 



Statement of the Mississippi Band of Choctaw Indians, Submitted for the 
                                 Record

[GRAPHIC] [TIFF OMITTED] T4193.023

                                 <all>

</pre></body></html>
